Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





      MEDICARE    ORTHOTICS




                  JUNE GIBBS BROWN
                  Inspector General

                     OCTOBER 1997
                     OEI-02-95-00380
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.




               OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and recommendations on the
efficiency, vulnerability, and effectiveness of departmental programs.

OEI’s New York Regional Office prepared this report under the direction of Alan S. Meyer,
Ph.D., Regional Inspector General. Project staff included:

New York Retion                                                Headquarters

Nancy Harrison, Project Leader 
                               Stuart Wright 

Lucille Cop, R.N. 
                                            Brian P. Ritchie 

Thomas Bollyky 
                                               Barbara R. Tedesco 

Jennifer Caves 


Carmen Sanchez, Administration on Aging


For additional copies of this report, please contact the New York Regional Office at
(212) 264-1998.
Department of Health and Human Services
        OFFICE OF 

   INSPECTOR GENERAL 





      MEDICARE 
 ORTHOTICS




            sERV



                   JUNE GIBBS BROWb
                   Inspector General

                      OCTOBER 1997
                      OEI-02-95-00380
                EXECUTIVE                            SUMMARY

PURPOSE

To determine the extent of questionable billing practices for Medicare orthotics and how it
relates to the orthotics industry and to carrier policies and procedures.

BACKGROUND

An orthosis is a device, sometimes called a brace, applied to the outside of the body that
supports a body part. Recent Office of Inspector General (OIG) studies have raised concerns
about orthotics in general. This inspection is one of many the OIG has undertaken
addressing durable medical equipment and related devices.

Any supplier with a HCFA provider number can provide and bill for orthotics. Suppliers of
orthotic devices include durable medical equipment companies, orthotists, pharmacies, and
doctors’ offices. Some suppliers specialize in orthotics while others supply orthotics as well
as a wide range of durable medical equipment. Suppliers may manufacture the devices in
their own workshops or obtain devices from other companies. An orthotist is a health
professional who treats musculoskeletal disorders by designing and fitting custom-made
orthoses. Orthotists are certified by professional organizations. No State presently licenses
orthotists but several States are currently considering licensing legislation.

We used a combination of methods in conducting this inspection. A medical records review
by medical experts determined if the physical conditions of our sample Medicare
beneficiaries warranted the use of an orthotic device. We then examined the billing records
of each beneficiary to look at additional aspects of the use of orthotics and related Part B
services. We supplemented these reviews with a mail survey to Medicare beneficiaries, a
mail survey to orthotic suppliers, telephone interviews with carrier representatives, and a
review of carrier policies.

FINDINGS

At Least Nineteen Percent of Orthotics Provided are Medically Unnecessary

The medical record review found that at least 19 percent of the orthotic devices provided are
medically unnecessary. Some beneficiaries who received orthotics did not have conditions
that warrant the use of a device. This represents $6.4 million in Medicare payments. Many
of the unnecessary orthotics are not rehabilitative, as required. Another 5 percent of orthotic
devices are medically questionable, which represents $1.5 million. In many of these cases, a
more sophisticated and expensive device was provided when a lesser device would have
offered the same benefit.

Our method of medical review focused on the sample device and did not address the other
devices provided to the beneficiary in the sample year. Therefore, the percent of devices
that are medically unnecessary is probably understated. To gain additional insights we
conducted a review of billings. We found that 54 percent of the billing cases have some type
of questionable orthotic billing. The two most common problems are many devices being
billed over a short time frame and several seemingly unnecessary add-on devices being
billed.

Durable Medical Equipment Companies are More Likely than Orthotists to Supply
Questionable Orthotics

The Medicare orthotics industry is fairly evenly divided between two very different types of
suppliers: orthotists and durable medical equipment companies. According to the billing
review, 68 percent of questionable cases are supplied by a durable medical equipment
company, in contrast to 35 percent of orthotist cases. Devices that do not have fitting
requirements, such as upper limb devices, and devices provided in the southeast region of the
country are all more likely to be questionable and more likely to be supplied by durable
medical equipment companies. Also, beneficiaries supplied by durable medical equipment
companies are more likely than beneficiaries supplied by orthotists to report never getting the
device.

Over Two-thirds of the Orthotics Billings in Nursing Facilities are Questionable

Sixty-eight percent of the cases in nursing facilities are questionable. Durable medical
equipment companies are more likely than orthotists to supply orthotics to beneficiaries in
nursing facilities. Orthotists generally supply orthotics to beneficiaries who live at home.
Most of the questionable cases in nursing facilities involve devices that do not have fitting
requirements. All four medical equipment carriers believe there are problems in the way
devices are supplied to beneficiaries in nursing facilities. They are particularly concerned
that residents are receiving devices that are not rehabilitative, as required. Another concern
is over-utilization.

The Billing Controls of the Durable Medical Equipment Regional Carriers are Limited

The medical equipment carriers have no policies for the great majority of the orthotic billing
codes. The codes that do have policies account for 38 percent of the allowed Medicare
dollars for orthotics in 1995. The carriers do not have policies for upper limb devices,
which we have identified as most likely to be problematic. Two main reasons cited for the
paucity of policies: the complexity of orthotics and the lack of clear medical consensus on
the use of orthotic devices. Due to lack of policies, carrier prepayment checks are limited to
utilization and supplier screens.

All the carriers report upcoding and unbundling as major problems. The carriers say these
problems exist because the current coding system is outdated and has not kept up with
changes in orthotic technology.




                                                 ii
RECOMMENDATIONS

We recognize and support the HCFA initiative underway with the Durable Medical
Equipment Regional Carriers’ medical directors to find better ways of assuring proper
payments for orthotics. Based on the nature of unnecessary devices and questionable billing
that we identified, we recommend that HCFA, in concert with the Durable Medical
Equipment Regional Carriers:

       Develop guidelines that better define orthotic devices, distinguishing among categories 

       of devices such as custom-made and off-the-shelf; 

       Develop policies for orthotic codes, giving priority to upper limb devices, which we 

       have identified as most problematic; 

       Develop screens for billing many orthotic devices on the same day or within a short 

       time frame; 

       Pay special attention to billing for orthotics in nursing facilities; 

       Work with the American Orthotic and Prosthetic Association to develop a table of 

       devices that should not be used together; and 

       Consider stricter standards for who is allowed to bill for orthotics, such as requiring 

       professional credentials for orthotic suppliers. 


COMMENTS

The HCFA concurred with all of our recommendations.       The full text of HCFA’s comments
is in Appendix E.




                                                ,..
                                                111
                          TABLE                           OF              CONTENTS

                                                                                                                         PAGE

EXECUTIVE SUMMARY

INTRODUCTION                   * . . . . . . ..s           a.....,             a. . . . . . . . . . . . . . . . . . . . . . .   1

FINDINGS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     � Medical    Necessity          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     � Problems     with DME Companies . . . . . . . . , . . . . . . . . . . . . . . . . . . . . . .                            8

     � Nursing    Facilities . . . . . . . . . ~ . . . . . ~ I ~ . . . . . . . . . . . . . . . . . . . . . . 10

     � Billing   Controls . . , . . ~ s . . . . ~ o . o . . . . D. ~ . . n . . . . . I . o . e ~ D0 D. 0 11

RECOMMENDATIONS                           , . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

APPENDICES

A: Sample .............................................                                                                     A-l

B: Part B Services             ........................................                                                     B-l

c:     Confidence Intervals            .....................................                                                C- 1

D: Non-respondent Analyses                      ..................................                                          D- 1

E: Comments            ...........................................                                                          E-l




                                                                          iv
                             INTRODUCTION

PURPOSE

To determine the extent of questionable billing practices for Medicare orthotics and how it
relates to the orthotics industry and to carrier policies and procedures.

BACKGROUND

Orthotic Devices

An orthosis is a device, sometimes called a brace, applied to the outside of the body that
supports a body part. The practice of providing orthoses is called orthotics, which literally
means the systematic pursuit of straightening or correcting. The devices are usually made of
rigid materials and are customized for an individual’s use. People who need orthotics range
from the severely disabled, such as paraplegics or quadriplegics, to someone who requires an
ankle brace for better gait. A person may need to wear the orthotic all the time for life, or
every day until the condition improves, or some other time frame as prescribed by the
physician. Since each orthotic is fitted for a particular patient’s use, an orthotic device
cannot be used properly by any one else.

Recent Office of Inspector General (OIG) studies have identified problems with certain
orthotic devices and raised concerns about orthotics in general. A 1994 OIG study,
“Medicare Payments for Orthotic Body Jackets” (OEI-04-92-01080), found 95 percent ($14
million) of claims for an orthotic device called a body jacket paid by Medicare in 1992 were
for non-legitimate devices. A related study, “Marketing of Orthotic Body Jackets” (OEI-04-
92-01081), identified problems in the marketing of body jackets. The present inspection is a
result of the questions raised in the body jacket studies, which highlighted the need to look
more broadly at orthotics as a whole. It is one of many inspections the OIG has undertaken
addressing durable medical equipment (DME) and related devices.

Medicare Coverage of Orthotics

Section 1834(h) of the Social Security Act (the Act) provides for payment of orthotics and
prosthetics as described in section 1861(s)(9). Prosthetics is the replacement of a body part.
This inspection does not address prosthetics. The Health Care Financing Administration
(HCFA) explains the definition of orthotic devices in 42 CFR 414.202 of its regulations,
which states, “leg, arm, back, and neck braces, and artificial legs, arms, and eyes, including
replacements if required because of a change in the beneficiary’s physical condition. ” A
recent HCFA ruling clarifies that the Act’s orthotics benefit regarding braces is limited to
leg, arm back, and neck braces that are used independently of other medical or non-medical
equipment.

Orthotic devices are mainly covered under Medicare Part B. As with all Part B Medicare
services, covered orthotics must be reasonable and necessary for the diagnosis or treatment


                                               1
of an illness or injury or to improve the functioning of a malformed body member.     Payment
is prohibited for medical services that are for prevention, palliation, research or
experimentation.

In order for an orthosis to be covered by Medicare, it must be a rigid or semi-rigid device
that is used for the purpose of supporting a weak or deformed body member or restricting or
eliminating motion in a diseased or injured part of the body. Orthotics claims must have a
prescription and/or a certificate of medical necessity signed by a physician. Unlike DME,
orthotics may be provided in a skilled nursing facility, a nursing home, or in the
beneficiary’s home.

The HCFA developed a coding system called the HCFA Common Procedure Coding System
(HCPCS) used for billing. The HCPCS codes LO100 through L4380, called L-codes, are
designated for orthotic devices. There are other miscellaneous and temporary codes but this
inspection focuses on L-codes only. There are 465 different L-codes for orthotics. In 1995,
approximately $188 million was allowed for claims for these codes.

The L-code listings give a brief description of the device and state whether the device needs
to be molded to a patient model, custom fabricated, custom fitted, or have no fitting
specifications. The durable medical equipment carriers explain custom fitted as when
“substantial adjustments are made to a prefabricated item by a specially trained professional
to meet the needs and/or unique shape of an individual patient.” Custom fabricated means
the “brace is made for a specific patient from his/her individualized measurements and/or
pattern. ” Molded to patient model is the “process in which an impression is made of the
specified body part. The impression is used to make a positive model of the body part.
Then the orthotic is custom fabricated and/or fitted using the model.” For the purposes of
this inspection, we consider a device to have “HCFA fitting requirements” if the L-code
definitions include the specifications of molded, custom fabricated, or custom fit.

Medicare Durable Medical Equipment Regional Carriers

Medicare Part B claims are processed by carriers under contract with HCFA. Carriers are
responsible for ensuring that coverage requirements are met before approving payment. In
October 1993, HCFA began processing claims for durable medical equipment, prosthetics,
orthotics, and supplies through four regional carriers called the Durable Medical Equipment
Regional Carriers (DMERCs). The four carriers, from regions A, B, C, and D, cover all
the States, the District of Columbia, and Puerto Rico from their separate headquarters.
Although fiscal intermediaries also process some claims for orthotics and other DME, this
report focuses only on the Part B payments made by the regional carriers for orthotic
devices.

The Statistical Analysis Durable Medical Equipment Regional Carrier (SADMERC) is under
contract to produce standard quarterly reports and provide analyses of claims data to identify
trends and aberrancies. It also conducts postpayment medical review of national suppliers in
order to determine if future corrective action is needed. All four medical equipment carriers



                                               2

use these data to identify suspicious durable medical equipment and orthotic suppliers and
high dollar and high volume claims for prepayment review.

Fee Schedule

The carrier determines fee schedules for most DME and prosthetic and orthotic devices. The
fee schedule for orthotics gives the floor and ceiling allowed amounts for each L-code.
Payment for orthotic devices is made on a lump-sum purchase basis using the lesser of the
fee schedule amount or the actual submitted charge. Orthotics are not rented. Medicare
pays for 80 percent of the allowed amount. The beneficiary, or the beneficiary’s secondary
insurance, is responsible for paying the remaining 20 percent. The cost for orthotic devices
range from $10 for a simple device to $2800 for a more sophisticated one. A supplier is
paid the same amount from the fee schedule regardless of how many support services, such
as teaching and fitting the beneficiary, it provides

Suppliers

Any supplier with a HCFA provider number can provide and bill for orthotics. Suppliers
need no financial investment and experience, and little verification is done of their
applications. Suppliers of orthotic devices include DME companies, orthotists, pharmacies,
and doctors’ offices. Some suppliers specialize in orthotics while others supply orthotics as
well as a wide range of DME equipment. Suppliers may manufacture the devices in their
own workshops or obtain devices from other companies.

Orthotists

An orthotist is a health professional who treats musculoskeletal disorders by designing and
fitting custom-made orthoses , Two organizations offer orthotist certification: the American
Board for Certification in Orthotics and Prosthetics, Inc., commonly known as ABC, and the
Board of Certification (BOC). The ABC sets standards of competency and grants a Certified
Orthotist (CO) credential. To qualify for ABC certification in orthotics, an individual must
have a college degree, have completed a postgraduate orthotist certificate program from an
accredited institution, and have at least 1 year of patient management experience. The
candidate must also pass two written exams and a 3 day clinical exam that tests the ability to
design, fabricate, and fit a variety of orthoses. Certified practitioners must meet continuing
education requirements every 5 years to renew their credentials. Currently, there are
approximately 2,124 ABC certified orthotists in the United States.

The BOC also certifies orthotists. There are more than 900 BOC certified orthotists. In
order to sit for the BOC certification examination, which includes written and practical
components, the applicant is required to have a high school diploma and minimum of 40
hours of unspecified formal education. In addition, all prospective BOC orthotists need to
have experience fitting orthoses.

As of now, no State licenses orthotists.   Several States, however, are currently considering
licensing legislation.


                                                3

According to ABC, the orthotist works from a physician’s prescription when providing an
orthosis. The physician writes the prescription and the patient then sees an orthotist for an
evaluation. Ideally, the orthotist and physician work together to determine the most effective
course of action. The orthotist is responsible for: formulating the orthosis’s design and
selecting materials and components; making all necessary casts, measurements, model
modifications, and layouts; performing fittings; evaluating the orthosis on the patient;
instructing the patient in its use; and maintaining patient records, all in conformity with the
prescription. Since the orthotist is the supplier of the device, the orthotist can bill Medicare
for it.

American Orthotic and Prosthetic Association

The American Orthotic and Prosthetic Association (AOPA) is a trade association for
suppliers of orthotic and prosthetic devices. The AOPA publishes several journals and
materials for patient education, lobbies for insurance reimbursement policies, monitors
legislation, and conducts business education programs for members.

Operation Restore Trust

This inspection is a part of the Department of Health and Human Services anti-fraud
initiative called Operation Restore Trust (ORT) designed to target fraud, waste, and abuse
related to home health agencies, nursing homes, and durable medical equipment. The ORT
initiative targets five States that account for 40 percent of the nation’s Medicare beneficiaries
and program expenditures: California, Florida, New York, Illinois, and Texas.

METHODOLOGY

We used a combination of methods in conducting this inspection. A medical record review
by medical experts was done to determine if the physical conditions of sample Medicare
beneficiaries warranted the use of an orthotic device. We then examined the billing records
of each beneficiary to look at additional aspects of orthotics and related Part B services. We
supplemented these reviews with a mail survey to Medicare beneficiaries, a mail survey to
orthotic suppliers, telephone interviews with carrier representatives, and a review of carrier
policies *

Sample

We selected a stratified random sample of 658 line items from Medicare claims for orthotics.
Before selecting the sample, we first chose 20 orthotic L-codes. The 20 codes, which
together represent approximately 50 percent of the allowed charges for all orthotics in 1995,
were selected based on one or more of the following three criteria: allowed dollars; rate of
growth; and/or having been identified during preinspection as potentially problematic. From
the HCFA 1995 1 percent Common Working file database of claims, we identified a universe
of 1,708 line items that had one of the 20 sample L-codes. A claim line item shows the L-
code and number of devices billed for that code. More than one device for one code may be
billed on the same line item.


                                                4

The sample was stratified by seven major groupings of codes so we could compare code
groups. It was not our intention to compare one specific L-code to another because the
number of individual claims in the sample cells was too small. The grouping of codes was
based on the part of the body the devices are supposed to support. We identified the
beneficiary, the supplier, and the referring physician for each device in the sample. See
Appendix A for more information on our sample selection and response rates and Appendix
D for non-respondent analyses.

Medical Record Review

A medical records review was done by a medical review contractor. The review determined
whether or not the records showed the beneficiary had a condition that warranted the use of
the orthotic device that came up in our sample. The reviewers did m look at additional
orthotic devices that may have been provided to the beneficiary throughout the year. For
each beneficiary identified in the sample, we requested their medical records from their
physician, home health agency, or nursing facility. We received 334 medical records for a
response rate of 51 percent. Another 8 percent of the providers indicated that they did not
prescribe the device. We analyzed the number of medical records received in relation to our
billing history review. Those beneficiaries for whom we received no medical records, were
more likely to have questionable billing histories. The records, prescriptions and certificate
of medical necessity, and any other documentation received from the supplier to determine
the medical necessity of the devices billed, were sent to a medical review contractor. The
contractor had physical or occupational therapists screen the records and, when appropriate,
refer the records for further review to a physician with a specialty in rehabilitative medicine.

Billing Review

In addition to the medical review, we also examined all orthotics billing records for each
beneficiary in our sample. This review showed us additional aspects of the use of orthotic
devices that the medical review could not. The billing review determined the following
questionable categories:
                       1) 	   multiple devices (more than two of the same device) or many
                              devices billed in a short time frame,
                      2) 	    atypical specialty for referring physician (such as pathologists
                              who do not see patients),
                       3) 	   many   add-on devices (parts added to basic devices that seem to
                              be duplicates of parts already on device) billed, and
                      4)      a combination of the problems listed.

While the medical review focused on the sample device, the billing review included all the
orthotic and related Part B services. Each sample device had a related case history that
showed all 1995 orthotics billings for the beneficiary who got the sample device. This gave
us 658 case histories. A beneficiary’s condition may require an orthotic device and therefore
the sample device would be deemed medically necessary by the medical reviewer, but if the
sample device had several add-on items or if the device’s components were billed separately,
the case would be deemed questionable based on the billing records.


                                                5
The Medicare Part B beneficiary billing records include not only the sample device, but all
1995 orthotic L-codes and related Part B services such as physical therapy, occupational
therapy, and orthotic training billed for each beneficiary in the sample. See Appendix B. A
registered nurse from the OIG project team reviewed the beneficiary histories, paying close
attention to the diagnosis, the types and number of devices billed, the time frame for the
billings, the related therapies billed, place of service, and the specialty of the referring
physician. Based solely on the information in the histories, which did m include the
medical records, the nurse made a judgment as to whether or not the histories raised
concerns of questionable billing.

Supplier Survey

We identified the 370 different suppliers that supplied all the devices in the sample and
contacted them by mail. The supplier response rate was 77 percent of the 658 cases. We
asked the suppliers to send us a picture, detailed description, and any brochures of the
sample device billed. We requested the certificates of medical necessity and/or prescription
for each case in the sample. They were also asked to provide their most recent annual
report, when applicable. We mailed the suppliers questionnaires about certain aspects of
their business, such as how many orthotists they have on staff, who does the custom-fitting,
who instructs the beneficiary, and how the coding and billing are done. The suppliers also
identified themselves as DME companies, orthotist practices, or some other business.

Beneficiary Survey

Since the sample was picked using line items, some of the same beneficiaries were
represented in more than one case. Of the 658 sample cases, 576 different beneficiaries
were identified, 128 of whom are deceased. A mail questionnaire was sent to the remaining
448 beneficiaries identified in the sample. If the beneficiary was identified in more than one
sample case, he or she was asked to fill out one questionnaire for each device. Beneficiaries
were asked to describe the type of orthotic provided to them and compare it to a sketch of
the device from the AOPA manual that is used throughout the orthotics field. The
beneficiaries were also asked about the process by which the device was provided and their
experience with the device. The beneficiary response rate was 61 percent.

Carrier Interviews

We interviewed representatives from all four Durable Medical Equipment Regional Carriers
by telephone. We asked them to identify any prepayment screens and edits they employ
regarding orthotics. We also obtained and reviewed all medical policies and educational
materials the carriers have that address orthotics. We discussed each carrier’s process for
creating screens and edits and asked them what additional screens and edits they would like
to have.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.



                                               6

                                      FINDINGS

AT LEAST NINETEEN PERCENT OF ORTHOTICS PROVIDED ARE MEDICALLY
UNNECESSARY

Many beneficiaries receiving orthotics do not have conditions that warrant the use of a
device

The medical record review found that at least 19 percent of the orthotic devices provided are
medically unnecessary. We project that the medically unnecessary devices represent $6.4
million in Medicare payments. See Appendix C.

Medically unnecessary orthotic devices are those that the physician medical reviewer
concluded are inappropriate based on the information in the medical record. A device is
labeled unnecessary for several reasons: if the beneficiary’s condition does not warrant an
orthotic device; if the device offers no functional benefit; if the device is for prevention; or if
it is for palliation, One example that is representative is a non-weight bearing patient,
demented from Alzheimer’s Disease, who received two knee orthoses. The medical reviewer
believes that passive range of motion exercises would be sufficient to prevent the increase of
the contractures and that the orthoses were not functional devices, Another example is a
patient receiving an immobilizing hand device where a cotton mitten or glove would prevent
the patient from scratching herself.

Compared to the devices that were reviewed and found medically necessary, the medically
unnecessary devices are more likely to have no HCFA fitting requirements, more likely to be
upper limb devices, more likely to be provided in the southeast region of the country, and
more likely to be provided to beneficiaries in nursing facilities. The medically unnecessary
devices are also more likely to be judged problematic in our review of orthotics billing. The
characteristics of the unnecessary devices will be expanded upon in the subsequent findings
of this report

Another 5 percent of orthotics are medically questionable

The 5 percent of orthotics that are medically questionable represent $1.5 million in Medicare
payments. Medically questionable orthotic devices are those where the physician medical
reviewer has questions about the medical necessity of the device. Often the device provided
is more sophisticated and expensive compared to the device that the beneficiary’s condition
actually warranted. An example is a bedbound multiple sclerosis patient who received two
knee orthoses to prevent contractures of the knee joints when the reviewer felt that bivalved
casts could be used just as effectively. Another example is a patient who had a stroke
several years ago and the medical record showed a little tightness in the hip. This patient
received a sophisticated abduction device while the medical reviewer felt a simpler device
was indicated.




                                                7

Like the medically unnecessary devices, the medically questionable devices also involve those
with no HCFA fitting requirement, upper limb devices, and devices that were judged
problematic in our review of orthotics billing.

Fifty-four percent of beneficiaries have questionable billings.

Since the medical record review looked at only the sample device billed, it probably
understates the total number of devices that are medically unnecessary. Therefore, to gain
additional insights, we conducted a further review of orthotic billings. Each sample device
has a related case history that shows the orthotic billing for the beneficiary who received the
sample device. Fifty-four percent of these cases show questionable billings. The two most
common problems are many devices billed over a short time frame (43 percent of the
questionable billings) and several seemingly unnecessary add-on devices billed (42 percent).
Other problems were less common: 6 percent of the questionable cases are due to an atypical
physician specialty, such as pathologists and psychiatrists, and 9 percent have a combination
of the problems listed above. An example of questionable billing is the 86 year old nursing
home resident with a diagnosis of decubitus ulcer. The devices billed for this beneficiary
include three hand/wrist devices with multiple add-ons for thumb and hand and add-ons to
lower limb devices. In this example a DME company supplied the devices.

DURABLE MEDICAL EQUIPMENT COMPANIES ARE MORE LIKELY THAN
ORTHOTISTS TO SUPPLY QUESTIONABLE ORTHOTICS

The Medicare orthotics industry is fairly evenly divided between two very different types of
suppliers: orthotists and DME companies. Orthotists account for 43 percent of Medicare
orthotics supplied; DME companies account for another 50 percent. Doctor’s offices,
pharmacies, and rehabilitation centers supply the remaining 7 percent. The findings
presented here will focus on orthotists and DME companies only. As discussed in the
introduction, orthotists usually have some type of professional certification. Their offices
usually have few employees, Durable medical equipment companies, on the other hand, are
not certified and may or may not have a certified orthotist on staff. A. few DME companies
supply only orthotics, but most DME companies supply general durable medical equipment
such as wheelchairs, support surfaces, and wound care supplies, as well as orthotics. In
general, DME companies have more employees than orthotists’ offices.

Sixty-eight percent of the cases where a DME company supplies the device are
questionable, in contrast to 35 percent of orthotistcases.

Many devices billed in a short time was the most common problem noted in the questionable
DME company cases. In one case, a beneficiary was billed for the same expensive upper
limb device on the same day of every month for 5 consecutive months. It is important to
note that orthotic devices are purchased, not rented. In another example, a 72 year old
beneficiary with contractures received five orthotic devices on the same day. A few days
later, the supplier billed for replacement laces. The allowed charges for the replacement
laces alone total $1,322. In many cases, multiple add-on devices were billed for a
beneficiary supplied by a DME company. One beneficiary was billed a hand/wrist device,


                                               8
only to get two more hand/wrist devices with multiple add-ons for the thumb and hand 6
weeks later.

Devices that do not have fitting requirements were more likely to be questionable and more
likely to be supplied by DME companies

About half the devices supplied have HCFA fitting requirements and half do not. More than
two-thirds (69 percent) of cases without HCFA fitting requirements, however, were
questionable while 39 percent with fitting requirements are questionable.

Durable medical equipment companies supply the majority (69 percent) of the devices
without HCFA fitting requirements while orthotists supply only 22 percent. The reverse is
true of devices with fitting requirements: 65 percent of them are supplied by orthotists and
22 percent are supplied by DME companies.

The devices that do not have fitting requirements are often called “off-the-shelf” in the
industry. These devices typically come in small, medium, and large and may have some
type of strap or fastening mechanism to secure on the patient. Because these devices are not
made specifically for an individual, many in the industry, especially orthotists, do not
consider them to be “true” orthotics and believe they should not be included in the same
category as orthotics. Orthotists supply 90 percent of the devices with the mold fitting
requirement, which is the most complex fitting requirement, compared to 7 percent supplied
by DME companies. Molded devices must be made specifically for an individual patient. A
mold is taken of a patient’s body part and the device is constructed from that mold.

Sixty-eight percent of cases where the supplier (either orthotist or DME company) buys the
devices already assembled are questionable in contrast to 34 percent of the cases where
suppliers make their own devices. Almost three quarters (74 percent) of orthotists report
manufacturing the devices they supply whereas very few DME companies (2 percent) report
manufacturing devices. The DME companies say they usually get the whole device from the
manufacturer.

Cases with upper limb devices are the most likely to be questionable. Almost all upper limb
devices do not have fitting requirements. Seventy-four percent of the upper limb cases have
problems compared to 44 percent of the lower limb cases. Durable medical equipment
companies supply the great majority (88 percent) of upper limb devices. Orthotists supply
just 5 percent of the upper limb devices. Orthotists are more likely to supply lower limb
devices, most of which have fitting requirements.

Durable medical equipment companies provide fewer services than orthotists; and suppliers
that provide few services are more likely to supply questionable orthotics

Most cases (83 percent) with suppliers that report they do not teach patients how to use
devices are questionable and a little less than half (49 percent) the cases with suppliers that
did report teaching are questionable. Only 20 percent of beneficiaries supplied by DME
companies say they were taught to use the devices and many of these beneficiaries were


                                                9
taught by nurses or therapists who are not associated with the supplying company. Another
12 percent of beneficiaries supplied by DME companies say that no one taught them how to
use the device. In contrast, 60 percent of beneficiaries supplied by orthotists say they were
taught.

We found that over three quarters (78 percent) of cases with suppliers that report they do not
fit devices on patients are questionable. Durable medical equipment companies usually do
not fit the devices. Only one quarter of the beneficiaries supplied by DME companies report
being fit by a company representative. Almost 75 percent of the beneficiaries supplied by
orthotists, however, report being fit with the device by the orthotist. According to
beneficiary responses, orthotists are also more likely than DME companies to take
measurements before supplying the device. If a DME company has an orthotist on staff,
however, it is more likely than companies that have no orthotists on staff to offer more
services, such as fitting devices and teaching patients.

Beneficiaries supplied by DME companies are more likely to report never getting the device

Twenty-three percent of the beneficiaries supplied by DME companies report never receiving
any type of device or receiving a device that looked nothing like the sketch in the American
Orthotic and Prosthetic Association manual that we sent them. The sketches in the manual
are used throughout the industry to identify devices under L-codes. Only 5 percent of the
beneficiaries supplied by orthotists report never receiving a device or receiving one that
looked nothing like the sketch.

Orthotics provided in the southeast region of the country are more likely to be questionable

Sixty-one percent of the cases in the southeast, compared to 48 percent in the rest of the
country, are questionable. Usually, this is because too many devices are billed in a short
time period. The devices provided in the southeast are more likely to be supplied by DME
companies and more likely to have no fitting requirements.

OVER TWO-THIRDS OF THE ORTHOTICS BILLINGS IN NURSING FACILITIES
ARE QUESTIONABLE

Sixty-eight percent of the orthotics in nursing facilities are questionable and DME
companies are more likely than orthotists to supply to beneficiaries in nursing facilities

Overall, two-thirds of the beneficiaries getting orthotic devices live at home and one-third
live in some type of nursing facility. Orthotists generally supply to beneficiaries who live at
home and DME companies generally supply to beneficiaries in nursing facilities. Of those
beneficiaries at home, 60 percent are supplied by orthotists and 33 percent are supplied by
DME companies. Of those beneficiaries in facilities, however, 11 percent of the
beneficiaries are supplied by orthotists while a far greater percentage (82 percent) are
supplied by DME companies. The beneficiaries supplied by DME companies seem to
include more of those in poor health: 71 percent of the beneficiaries who are now deceased
had been supplied by DME companies whereas 15 percent had been supplied by orthotists.


                                               10
Most of the questionable cases in nursing facilities (72 percent) involve devices that do not
have fitting requirements. A common problem noted in nursing facilities is the billing of
multiple hand/wrist devices on the same day or within a very short time period.

The majority of DME companies (74 percent) report that they get referrals from physical or
occupational therapists and nursing facilities. In contrast, only 7 percent of orthotists say
that therapists and nursing facilities are referral sources Orthotists are more likely to get
physician referrals than are DME companies. A great majority of orthotists (92 percent)
report that they most often get their referrals from physicians, while just 13 percent of the
DME companies report the same,

Medical equipment carriers have concerns about the use of orthotics in nursing facilities

All four medical equipment carriers believe there are problems in the way devices are
supplied to beneficiaries in nursing facilities. A major concern is whether the residents
receiving orthotic devices are rehabilitative, as required. The carriers believe that many
devices supplied are not medically necessary. For instance, a rolled up wash cloth might be
better for certain hand contractures than a sophisticated, cumbersome, and expensive
wrist/hand device. A few carriers point out that a lot of orthotic devices, especially in
nursing facilities, are prescribed by general physicians who give vague descriptions such as
“ankle brace, ” then it is left up to the supplier to decide exactly what to supply and bill.

Another concern in nursing facilities is over-utilization. One carrier representative reports,
“In one case, the same knee and lower back orthotics were issued to every patient in a
particular nursing facility. ” At least one supplier agrees with the carriers by saying,
“individuals or companies have sales people on a quota and all they care about is putting
orthotic devices on anybody. They just go in a nursing home and tell nursing [staffl that
these people need splints and most of them don’t. ”

The carriers also complain that contradictory devices are commonly billed to a single nursing
home patient. The AOPA is currently developing a table that show codes that should not be
used in combination with each other.

THE BILLING CONTROLS OF THE DURABLE MEDICAL EQUIPMENT
REGIONAL CARRIERS ARE LIMITED

The medical equipment carriers have no policies for the great majority of the orthotic L-
codes

The medical equipment carriers have specific medical policies addressing only 15 percent of
the orthotic L-codes. These codes account for 38 percent of the allowed Medicare dollars
for orthotics in 1995. Presently the carriers have published policies for spinal, ankle-foot,
knee-ankle-foot, and ankle positioning orthoses. They do not have policies for upper limb
devices, which we have identified as most likely to be problematic.
The policies the carriers do have offer general definitions of devices that could be billed
under the codes. The policies also give indications for the general purpose and use of the
devices. For example, a policy indication would be “to reduce pain by restricting the
mobility of the trunk. ” Some policies also have requirements for supplemental
documentation, such as photographs of the device, or medical documentation to justify the
prescription of a particular device.

The carriers cite two primary reasons for the paucity of policies: the complexity of orthotics
and the lack of clear medical consensus on the use of orthotic devices. However, policies
for other durable medical equipment groups such as support surfaces have been developed
despite the complexity of the issue and lack of medical consensus. The carriers explain that
orthotics is a complicated subject due to the large number of devices and various L-codes and
because there are significant differences between devices fabricated from raw materials for a
particular individual and the “off-the-shelf” devices. These differences have yet to be
defined. According to the carriers, they are currently working on developing policies for
more orthotic codes and much of that work is directed towards delineating between the
custom-fabricated and “off-the-shelf” devices. The carriers also say that the medical
community, orthotists, and suppliers have not been able to build consensus on the proper use
of orthotic devices. This disagreement makes it all the more difficult to develop policies.
One carrier representative noted, “Without a medical consensus, it is a very complicated,
slow process. ”

Due to lack of policies, carrier prepayment checks are limitedto utilizationand supplier
screens

A carrier cannot implement widespread procedures for processing claims without a
corresponding published policy. Therefore, claims are generally paid in good faith for those
L-codes that are not addressed in a policy. When policies do exist, guidelines for that code
are usually automated to assist the claims processor. Carriers have utilization screens that
target billing for a particular code. An example of this type of screen is a limit of one
particular device in the same year for the same beneficiary.

The carriers also develop screens if they conclude there is a problem supplier. When a
supplier is under review, all claims from that supplier are evaluated. Usually medical
justification is required for each claim. Problem suppliers are generally identified through
beneficiary complaints, utilization screens or post-payment reviews.

The carn’ers cite problems withcoding

All the carriers report upcoding and unbundling as problems. Upcoding is the practice of
billing the device provided under a more expensive code than that device merits
Unbundling is the separate billing of components, such as add-ons, that make up a single
device. The carriers say upcoding and unbundling have become problems because the
existing coding system is outdated and has not kept up with changes in orthotic technology.
They say the L-codes were established when most orthotic devices were individually



                                               12 

manufactured or if the device was already made, it was substantially customized for the
patient. Now the devices are increasingly “off-the-shelf” in nature.

Carriers believe it is relatively easy to receive a provider number and supply orthotics. They
suggest that the review of prospective suppliers be more rigorous. Another common
recommendation was that provision of complicated, molded devices be limited to certified
orthotists D




                                              13 

                        RECOMMENDATIONS

We recognize and support the HCFA initiative underway with the Durable Medical
Equipment Regional Carriers’ medical directors to find better ways of assuring proper
payments for orthotics. Based on the nature of unnecessary devices and questionable billing
that we identified, we recommend that HCFA, in concert with the Durable Medical
Equipment Regional Carriers:

       Develop guidelines which better define orthotic devices, distinguishing among
       categories of devices such as custom-made and off-the-shelf;

       Develop policies for orthotic codes, giving priority to upper limb devices, which we
       have identified as most problematic;

       Develop screens for billing many orthotic devices on the same day or within a short
       time frame;

       Pay special attention to billing for orthotics in nursing facilities;

       Work with the American Orthotic and Prosthetic Association to develop a table of
       devices that should not be used together; and

       Consider stricter standards for who is allowed to bill for orthotics, such as requiring
       professional credentials for orthotic suppliers.

COMMENTS

The HCFA commented on our draft report and concurs with all of our recommendations.
The full text of HCFA’s comments is in Appendix E.

The HCFA agrees with our recommendation to better define orthotic devices, and is
preparing a report to Congress that describes prosthetic devices, orthotics, and prosthetics
covered under Part B that do not require individualized or custom fitting and adjustment.
This report is recommending that the Medicare statute be revised to change the payment
methodology for all prosthetic devices, orthotics, and prosthetics.

The HCFA agrees with our recommendation to develop policies for orthotic codes, and is
currently working with the durable medical equipment carriers (DMERCs) on the feasibility
of issuing revised regional medical review policies.

The HCFA agrees with our recommendation to develop billing screens for orthotic devices,
and will work with the DMERCs to ensure that utilization/frequency edits are in place after
the development and implementation of the new medical review policies.




                                                 14 

The HCFA agrees with our recommendation to pay attention to billing in nursing facilities 

and believes that the development of policies and edits will strengthen their ability to control 

inappropriate billings for orthotics in nursing facilities 


In addition, the Balance Budget Act of 1997 contains a number of nursing home reforms 

including creating a prospective system for Part A covered services. This bundled payment 

will eliminate separate payment for orthotics as provided under a Part A stay. Also, for 

stays not covered by Part A, the statute requires the nursing facility to bill for items such as 

orthotics. When implemented, these reforms should help control inappropriate billings in 

nursing facilities. 


The HCFA agrees with our recommendation to work with the American Orthotic and 

Prosthetic Association to identify devises that should not be used together. The HCFA 

indicates that they are consulting with them and other relevant professional organizations in 

developing the regional medical review policies. 


The HCFA agrees with our last recommendation, to consider stricter standards as to who can 

bill for orthotics. Since HCFA traditionally relied upon States to determine the extent to 

which physicians and other health care professionals must be licensed in order to furnish 

health care services there is no explicit Medicare statutory authority in this regard. 

However, there is authority under section 1662(a)(A) of the Medicare statute to develop 

standards for “reasonable and necessary” medical services. Using this statute, HCFA expects 

to establish more stringent standards where State licensure is found to be inadequate. The 

HCFA is also considering limiting who will be eligible to supply orthotics in the proposed 

regional medical review policies. 





                                                15 

                            APPENDIX                    A




                         L-CODES INCLUDED          IN SAMPLE

CODE         HCFA DESCRIPTION

LO420   -   Thoracic-Lumber-Sacral Orthoses (TLSO) , two piece construction, molded to 

            patient model 

LO430   -   TLSO, with interface material custom-fitted 

LO700   -   Cervical-TLSO, molded to patient model (Minerva type) 

L1680   -   Hip Orthoses (HO), abduction control of hip joints, dynamic pelvic control, 

            adjustable hip motion control, thigh cuffs 

L1686   -   HO, Abduction control of hip joint, post-operative abduction hip type, custom-

            fitted 

L1832   -   Knee Orthoses (KO), adjustable knee joints, positional orthoses, rigid support, 

            custom fitted 

L1844   -   KO, single upright, thigh and calf, with adjustable flexion and extension joint, 

            medial-lateral and rotation control, molded to patient model 

L1845   -   KO, double upright, thigh and calf, with adjustable flexion and extension joint, 

            medial-lateral and rotation control, custom fitted 

L1855   -   KO, molded plastic, thigh and calf sections, with double upright knee joints 

L1960   -   Ankle-Foot Orthoses (AFO), posterior solid ankle, molded to patient model, 

            plastic 

L1970   -   AFO, plastic, molded to patient model, with ankle joint 

L1990   -   AFO, double upright free plantar dorsiflexion, solid stirrup, calf band/cuff 

            (Double Bar BK Orthoses) 

L2036   -   Knee-Ankle-Foot Orthoses full plastic, double upright, free knee, molded to 

            patient model 

L3730   -   Elbow Orthoses (EO), Double upright with forearm/arm cuffs, 

            extensiomflexion assist 

L3740   -   EO, Double upright with forearm/arm cuffs, adjustable position lock with 

            active control 

L3805   -   Wrist-Hand-Finger-Orthoses (WHFO), long opponens, no attachment 

L3860   -   WHFO, addition to short and long opponens, adjustable M.P. flexion control 

            and I.P. 

L3904   -   WHFO, electric powered 

L3963   -   Shoulder-Elbow-Wrist-Hand Orthoses, molded shoulder, arm, forearm, and 

            wrist, articulating elbow joint 

LA310   -   Multi-podus or equal orthotic preparatory management system for lower 

            extremities 





                                          A-l
                                         TABLE A-l




                               SAMPLE STRATIFICATION

    STRATA     DESCRIPTION       OF STRATA                     Number in        Number in
                                                               Universe         Sample

      1        Body                                                  89               60
      2        Upper limb; more expensive                           102               102
      3	       Upper limb; less expensive, line item                 33               33
               allowed charge is more than $280*
      4	       Upper limb; less expensive, line item                396               80
               allowed charge less than or equal to $280
      5        Lower limb; more expensive                           154               154
      6	       Lower limb; less expensive, line item                 79               79
               allowed charge is more than $740”
               Lower limb; less expensive, line item                855               150
               allowed charge is less than or equal to
               $740

                                                                   1,708             658


*      In the majority of the cases, the line item was higher than the ceiling price listed in
       the HCFA schedule because more than 1 device was billed on that line of the claim.




                                             A-2 

                                         TABLE A-2




                                      RESPONSE        RATES

     STRATA                  Questionnaires    Received                Medical Records

                       Beneficiary*                   Supplier            Received* *




        6                35 (56%)                     65 (82%)              41 (52%)
        7                99 (76%)                114 (76%)                  82 (55%)
      Total:            324 (61%)                504 (77%)                 334 (51%)


*      Beneficiary response rates are based on questionnaires received from the 530
       live beneficiaries.

**     In an additional 52 (8 percent) of the cases, the referring physician on HCFA’s record
       did not prescribe the device.




                                              A-3 

                           APPENDIX                     B


            PART B SERVICES INCLUDED IN BILLING RECORDS

Code      Description

97110 -   Therapeutic procedure, one or more areas, each 15 minutes; therapeutic
          exercises to develop strength and endurance, range of motion and flexibility.

97112 -   Neuromuscular reeducation of movement, balance coordination, kinesthetic
          sense, posture and proprioception.

97113 -   Aquatic therapy with therapeutic exercises

97116 -   Gait training (includes stair climbing)

97139 -   Unlisted therapeutic procedure

97150 -   Therapeutic procedure(s), Group (two or more individuals)

97500 -   Orthotics training (dynamic bracing, splinting upper and/or lower extremities;
          initial 30 minutes, each visit

97501 -   Each additional 15 minutes

97530 -   Therapeutic activities, direct (one on one) patient contact by the provider (use
          of dynamic activities to improve functional performance), each 15 minutes

97535 -   Self care/home management training (eg. activities of daily living [ADL] and
          compensatory training, meal preparation, safety procedures, and instructions in
          use of adaptive equipment) direct one on one contact with provider, each 15
          minutes

97703 -   Checkout for orthotic/prosthetic use, established patient, each 15 minutes

97799 -   Unlisted physical medicine/rehabilitation   service or procedure

99002 -   Handling, conveyance, and/or any other service in connection with the
          implementation of an order involving devices (eg. designing, fitting,
          packaging, handling, delivery or mailing) when devices such as orthotics,
          protectives, prosthetics are fabricated by an outside laboratory or shop which
          items have been designed, and are to be fitted and adjusted by the attending
          physician




                                           B-l
                               APPENDIX                   C

                CHI-SQUARE         TESTS AND CONFIDENCE        INTERVALS




Chi-Square Values

We computed chi-square values for differences in questionable billing histories for the five
variables upon which our major findings are based. Chi-square values show that differences
on all five variables were significant at the 95 percent confidence level.




                                          Table C-l

       CHI-SQUARE Valuesfor Testing Significance of Differences in Questionable
       Billing Historiesfor Type of Supplier, Type of Device, Fining Requirements,
       Region, and Residence



II              VARIABLE                     I    DF*    I         CHI-SQUARE
              Type of Supplier 
                   2                    42.15
              Type of Device 
                     2                    50.27
            Fitting Requirements 
                 1                    51.42
                  Region 
                         1                     9.04
                 Residence 
                       1                    20.65

               *Degrees of Freedom




                                            C-l
                               Table C-2

                       Projectionsof Cost Savings
              Based on Unnecessaryand QuestionableServices


  Service Outcomes          Sample Size      Weighted        Boundaries for
                                            Projections      95%
                                                             Confidence
                                                             Interval
 1) services medically          334         $6,437,786        +/- $1,871,542
unnecessary (n= 61)
2) services medically           334         $1,532,776         + /- $703,498
questionable (n = 20)




                                 c-2
                               APPENDIX                   D




                             NON-RESPONDENTANALYSES

An important consideration in studies of this type is the bias that may be introduced into the
results if non-respondents differ from respondents to the data collection instruments. To test
for the presence of any bias, we first obtained information from the HCFA’s one percent
Common Working File (CWF) for all 658 beneficiaries in our sample, including both
respondents and non-respondents. We then analyzed the variables that might influence
whether an individual would respond to the survey or that might affect the responses given.
For our sample, we looked at place of residence (home vs facility), region of the country
(Southeast vs rest of U. S.), and device fitting requirements (special requirements vs none).
Differences between respondents and nonrespondents for each of the three variables were
tested for significance using Chi-square with the appropriate degrees of freedom. Analyses
of respondents and non-respondents are presented separately for the medical records review
and the orthotics supplier survey.

A. Medical Records Review

For this portion of the inspection, a beneficiary whose medical records were not obtained and
reviewed is a non-respondent. There were 324 non-respondents, including 272 beneficiaries
for whom we received no records and another 52 whose physicians indicated that no orthotic
devices were ordered (and, therefore, no relevant records existed). The remaining 334
beneficiaries for whom records were received and reviewed are our respondents.

The results of this analysis are presented in Tables D-l, D-2, and D-3 below. The Chi-
square values given in the tables provide a test of significance for the differences in the
distribution of respondents and non-respondents for each variable of interest. Also provided
in the tables are the response rates for the different values of the variables.

Tables D-l and D-3 show no statistically significant differences between respondents and
non-respondents for the variables tested.

Table D-2 shows a statistically significant difference between respondents and non-
respondents with respect to the region of the country in which they live (Southeast vs rest of
U.S.). In order to test whether this difference introduced any bias, we analyzed answers to
two key medical record review questions for differences between regions: 1) whether the
claim was medically questionable (e.g., a simpler device was indicated), and 2) whether the
device was medically unnecessary.

The proportion of claims deemed medically questionable in the Southeast was within 1
percentage point of that for the rest of the country, a statistically insignificant difference.
However, the proportion of orthotics determined to be medically unnecessary differed by 12


                                             D-f
percentage points between regions, so further analysis was required. Assuming that non-
respondents and respondents from the same geographic region had the same proportion of
medically unnecessary devices, we calculated a hypothetical global rate for medically
unnecessary devices for all 658 beneficiaries in the sample. This calculation gave only a
slightly higher medically unnecessary rate of 20 percent (compared to 19 percent for
respondents). This difference is not statistically significant.

                                        TABLE D-l

                          BENEFICIARY     PLACE OF RESIDENCE

                      Respondents           Non-respondents          Total      Response
                                                                                Rate

 Home               234          70%        209           65%         443          53%
 Facility           100          30%        115           35%         215          47%


 Total                     334                      324               658          51%
 CHI-SQ = 2.306
 Degrees of Freedom = 1




                                        TABLE D-2

                          BENEFICIARY     REGION OF COUNTRY

                      Respondents           Non-respondents          Total      Response
                                                                                Rate

 Southeast          107          32%        160           49%         267          40%
 Rest of U.S.       227          68%        164           51%         391          58%


 Total                     334                      324               658          51%


I/
 CHI-SQ = 20.524
 Degrees of Freedom = 1




                                            D-2 

                               TABLE D-3

                      DEVICE FITTING REOUIREMENTS

                                  Non-respondents




Total                  334                324       658   51% 


CHI-SQ = 1.190 

Degrees of Freedom = 1 





                                  D-3 

B. Beneficiarv Survev

For this part of the inspection, a beneficiary for whom a survey was not received is a non-
respondent. There were 324 non-respondents and 206 respondents.

The results of this analysis are presented in Tables D-4, D-5, and D-6 below. The Chi-
square values given in the tables provide a test of significance for the differences in the
distribution of respondents and non-respondents for each variable of interest. Also provided
in the tables are the response rates for the different values of the variables.

All three tables show statistically significant differences between respondents and non-
respondents with respect to each of the three variables analyzed. In order to test whether
these differences introduced any bias, we analyzed answers to the key beneficiary survey
question used in our findings: whether or not the beneficiary received a device which looked
like the one for which Medicare was billed. For each variable analyzed (e.g., place of
residence), the distribution of answers given by different segments of the sample (e.g., at
home vs in facility) were within two percentage points of each other. These differences are
not statistically significant.



                                        TABLE D-4

II                        BENEFICIARY     PLACE OF RESIDENCE

                      Respondents           Non-respondents           Total     Response
                                                                                Rate

 Home               260          80%        130           63%         390           67%

 Facility            64          20%         76           37%          140          46%



 Total                     324                      206               530           61%

 CHI-SQ = 19.034
 Degrees of Freedom = 1




                                            D-4 

                                     TABLE D-5

                      BENEFICIARY     REGION OF COUNTRY

                  Respondents          Non-respondents     Total   Response
                                                                   Rate

Southeast       126            39%      98           48%   224        56%

Rest of U.S.    198            61%     108           52%   306        65%



Total                    324                   206         530        61%


II
CHI-SQ = 3.892
Degrees of Freedom = 1


                                     TABLE D-6

                       DEVICE FITTING REQUIREMENTS

                  Respondents          Non-respondents     Total   Response
                                                                   Rate

Has              211           65%     114           55%   325        65%
requirement

No               113           35%      92           45%   205        55%
requirement



Total                    324                   206         530        61%

CHI-SQ = 5.082
Degrees of Freedom = 1




                                       D-5 

                              APPENDIX                   E

                        COMMENTS       ON THE DRAFT REPORT

In this appendix, we present in full the comments from the Health Care Financing
Administration.




                                           E-l
                             .-?&L,   ,..
                                       ,.

                                                                            Health   Care   Ftnancing      Administrat,
      DEPARTMENT     OF HEALTH 29 HUMAN     SERV1CES


                                                                            The   Admlnlstrator 

                                                                            Washington,       D.C.      20201 





BATE:          AUG 1 I W7 


TO:           June Gibbs Brown 



FROM:


SUBJECT: 	    Office of Inspector General (OIG) Draft Report: “Medicare Orthotics,”
              (OEI-02-95-00380)

We reviewed the above-referenced report that examines the extent of questionable billing
practices for Medicare orthotics and how it relates to the orthotics industry and to carrier
policies and procedures.

Our detaileci comments are attached for your consideration.    Thank you for the
opportunity to review and comment on this report.

Attachment
,
                Comments    of the Health Care Financmrr .\dmimstranon ( HCF.\)     on
                      Office of Inspector General (OIG) Draft Report Entitled:
                             “r\/tedicare Orthotics,” (OEI-02-95-00380)



      HCFA should, in concert with the durable medical equipment regional caxiers
     (DMERC,s):
    Ir-, s
    OIG Recommendation

    Develop guidelines that better define orthotic devices, distinguishing   among categories of
    devices such as custom-made and off-the-shelf.

    HCFA Response

    We concur. As required by section 13 l(c) of the Social Security Act Amendments of
     1994, we are preparing a report to Congress tha: describes prosthetic devices, orthotics,
    and prosthetics covered under Part B of the Medicare program that do not require
    individualized or custom fitting and adjustment. This report, presently in final          -
    Departmental clearance, provides a list of devices that are not prefabricated for proper fit *
    or require individualized modification or custom fitting. Ln addition, a listing is provided
    of those products that need fairly minor adjustments and generally do not require the
    expertise of an orthotist. The report recommends the kledicare statute be revised to
    change the payment methodology for all prosthetic devices, orthotics, and prosthetics:
    regardless of whether they require fitting or adjustments. It also recommends the fee
    schedules be recomputed from the base year, and regional fee schedules be estimated.
    Accordingly, the median value would be used as a payment limit, as in the current
    methodology for DME covered under the Medicare program. We estimate these
    recommendations could save up to $390 million over the next 5 years.

    OIG Recommendation

    Develop policies for orthotic codes, giving priority to upper limb devices, which we     ’
    identified as most problematic.

    HCFA Response

    We concur. We are currently working with the D\lERCs on the feasibility of issuing
    revised regional medical review policies (R~NPs ) that will provide further guidance.on
    the scope and meaning of prosthetics and orthoncs as a Medicare benefit. The
  development of these revised RMRPs are in the prehmin~        stages. The DMERCs are
  holding fact gathering meetings with various representatives of the medical community on
  the use of prosthetics and orthotics in various settings. We expect to issue draft policies
  for public comment early next year.

--OIG   Recommendation

  Develop screens for billing many orthotic devices on the same day or within a short time
  f%me.

  HCFA Response

 We concur. Subsequent to development and implementation of new medical review
 policies and procedure codes, HCFA will work with the DMERCs to ensure that
 utilization/frequency edits are in place. We agree that edits will limit the supplier’s
 ability to upcode or unbundle when billing -Medicare for orthotic equipment.
                                                                                             .

                                                                                                  .’

 OIGRecommendation

 Pay special attention to billing for orthotics in nursing facilities.
                                                                                           -. 

 HCFA Response

 We concur. Based on the findings in the OIG report, we recognize there is a need to
 closely monitor billing practices in nursing homes. We believe the development of
 policies and edits will strengthen our ability to control inappropriate billings for oxthotics
 in nursing facilities. Additionally, we will continue to work with the DMERCs to
 determine the other methods for ensuring that orthotics billed to Medicare meet medical
 necessity requirements.

 OIG Recommendation         .                                                                .



 Work with the American Orthotic and Prosthetic Association to develop a table of
 devices that should not be used together.

 HCFA Response

 We concur. We are consulting with the American Orthotic and Prosthetic Association, as
 well as other relevant professional organizations. as part of the development of the RMRP
 on prosthetics and orthotics previously mentioned
OIG Recommendation

Consider stricter standards for who is allowed to bill for   orthotics,   such as requiring
professional credentials‘for orthotic suppliers.
4f-, I
HCFA Resnonse

 We concur. Because there is no explicit -Medicare statutory authority in this regard, we
traditionally relied upon states to determine the extent to which physicians and other
health care professionals must be licensed in order to furnish health care services. In this
respect, all health care providers under -Medicare are required to meet any applicable state
licensure’requirements.    There is, however, authority under section 1962(a)(l)(A) of the
Social Security Act to develop standards for what is reasonable and necessary medical
services. Under this authority, we expect to establish more stringent standards where
state licensure is found to be inadequate for Medicare purposes. In this context, we are
ako considering limiting who will be eligible to supply orthotics in the proposed RMRP
                                                                                             I
for prosthetics and orthotics.
